                            TESTIMONY OF

                         MICHAEL CARROLL,

                   DEPUTY INSPECTOR GENERAL,

        U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT


                             BEFORE THE

      SUBCOMMITTEE ON CONTRACTING OVERSIGHT OF THE

        SENATE COMMITTEE ON HOMELAND SECURITY AND

                      GOVERNMENTAL AFFAIRS



“OVERSIGHT OF RECONSTRUCTION CONTRACTS IN AFGHANISTAN
    AND THE ROLE OF THE SPECIAL INSPECTOR GENERAL”




                         NOVEMBER 18, 2010


      Madam Chairman and Ranking Member Brown, I am pleased to

appear before you to testify on behalf of the Office of Inspector General

(OIG) of the U.S. Agency for International Development (USAID) and to be

joined by my distinguished colleagues from the Departments of State and
Defense. Today I would like to provide you with information about our

oversight role in Afghanistan and coordination with other oversight and law

enforcement entities operating abroad. In addition, I would like to share

some perspectives on the proposal to create a permanent inspector general to

oversee contingency operations.



                 The Role of USAID OIG in Afghanistan


      USAID OIG oversees USAID programs around the globe, and we

exercise especially vigorous oversight of USAID activities in Afghanistan.

We regard oversight of USAID programs in Afghanistan as our top priority.

Because of the scale of the U.S. assistance effort in Afghanistan and the high

risk of waste, fraud, and abuse, our office in Kabul will soon be the largest

of our eight overseas regional and country office locations.

      In the current budget environment—provided we receive no additional

funding for our high-priority programs—we recognize that we will need to

substantially curtail oversight of USAID development assistance programs

in other regions of the world to maintain the existing level of oversight in

Afghanistan, as well as in other high-priority areas such as Pakistan, Iraq,

and Haiti. We are preparing to sacrifice oversight elsewhere because of the

importance of these efforts.


                                     -2-
      Our extensive commitment to oversight efforts in Afghanistan is

nothing new. In fact, our Afghanistan oversight program dates back to

November 2002—5 years before the establishment of the Special Inspector

General for Afghanistan Reconstruction (SIGAR). Through our work over

these years, we have instituted effective systems for detecting and

investigating allegations of waste, fraud, and abuse in development

assistance programs.    Drawing on our strong in-country presence we:

(1) execute a comprehensive plan of program audits on USAID’s

performance, (2) perform financial audits of contractors and grantees,

(3) conduct outreach to promote fraud awareness, and (4) conduct proactive

and reactive investigations.   Together, these efforts have reinforced the

quality and integrity of U.S. development assistance and delivered important

returns to taxpayers. Our presence and outreach work help deter those who

would attempt to defraud the U.S. Government.

      To date—at a cost of just over $10 million—we have completed

39 performance audits and reviews of USAID programs and made

160 corresponding recommendations.       In addition to this performance-

focused work, we have scrutinized project finances and issued financial

audits of more than $800 million in USAID program expenditures.




                                   -3-
Collectively, these audits have identified more than $114 million in

sustained questioned costs and funds to be put to better use.

      While executing a robust audit program in Afghanistan, we have

simultaneously built up a high-yield investigative enterprise there.      Our

criminal investigators have all of the traditional law enforcement

authorities—including those for search, seizure, and arrests—and extensive

training and expertise in investigating complex contract procurement fraud

schemes.

      In developing investigative partnerships and support, we rely on

traditional law enforcement agencies, such as the Federal Bureau of

Investigation, and on members of the statutory inspector general community.

We have good working relationships with these organizations and have

produced notable investigative results.

      For example, we recently conducted a complex investigation of a

contractor that has implemented reconstruction programs in Iraq and

Afghanistan.    The investigation spanned 5 years, produced more than

350 boxes of evidence, and required a 50-page affidavit for a search warrant.

The investigation resulted in two guilty pleas and a settlement of $69 million

for criminal and civil violations.




                                     -4-
      Our office has opened 97 Afghanistan-based investigations addressing

the full range of criminal activity—from theft, product substitution, and

accounting fraud to solicitation of kickbacks. As of September 30, 2010,

these investigations had led to 22 referrals for prosecution, 12 indictments,

9 convictions, and 48 administrative actions, such as contract terminations

and debarments. In total, our investigative work has resulted in savings and

recoveries of approximately $152 million.

      This history of effective engagement in Afghanistan has been

predicated on the strength and resiliency of our workforce. Over the years,

we have been fortunate to enlist skilled professionals who possess the

knowledge and experience needed to conduct assertive oversight in conflict

areas. That these employees are willing to be separated from friends and

family, to do without certain basic amenities, and to endure the threat of

violence demonstrates their commitment to the U.S. Government and the

American taxpayer.

      Their work—and that of our staff members in other parts of the world

who support them—has yielded significant returns for taxpayers. For each

dollar OIG has expended on oversight in Afghanistan since fiscal year 2003,

we have returned a total of $26 in sustained questioned costs, funds to be put

to better use, and investigative savings and recoveries.



                                     -5-
                 Law Enforcement and Oversight Coordination


      We dedicate an exceptional amount of time and resources to

coordination in Afghanistan.      Although we are committed to effective

coordination, coordination requirements in Afghanistan could be reduced if

the statutory inspectors general did not have to coordinate with a special

inspector general that has cross-jurisdictional authorities.

      We engage in a number of forums to share information and coordinate

with other oversight organizations. We participate in the Southwest Asia

Joint Planning Group and chair the Afghanistan-Pakistan Subgroup, the

focal point for sharing information and coordinating planned audits, reviews,

and inspections. In addition to participating in these planning groups, our

Country Director in Afghanistan regularly meets with other oversight bodies

in the Inspector General Shura and routinely engages with oversight

counterparts in person and by telephone and e-mail. OIG representatives

also participate in Task Force 2010 and other efforts that are seeking

evidence of diversion of U.S. assistance funds to insurgents.       We also

consult with Agency staff at the USAID mission and at headquarters in

developing our oversight plans.




                                      -6-
      On the investigative front, we frequently conduct joint investigations

with law enforcement counterparts and actively participate in the National

Procurement Fraud and International Contract Corruption Task Forces. We

work closely with U.S. prosecutors on all investigative matters within our

jurisdiction subject to U.S. prosecution and, when appropriate, coordinate

and collaborate with local law enforcement and prosecutors to bring cases to

a successful conclusion in Afghanistan.

      The establishment of SIGAR, with authorities that overlap those of

the statutory inspectors general, has contributed to confusion and

inefficiencies in audits and investigations.       For example, USAID

implementing partners are confused about whom to work with to address

allegations of fraud, waste, and abuse. In addition, in January—2½ months

after we issued an audit report on difficulties that a USAID power sector

program had encountered in the construction of the Kabul power plant—

SIGAR issued a similar report. The SIGAR report reiterated several of the

findings we noted in our report, such as problems with sustainability of the

Kabul power plant, the ability of the Afghan Government to collect revenue

from users to support the plant, and cost overruns from the contractor.

Although SIGAR’s work in this area may have provided some marginal




                                    -7-
value, we believe that the concerned parties would have been better served

by less redundancy.



       The Advisability of Creating a Permanent Inspector General for
                         Contingency Operations


      Contingency operations have become a prominent feature of our

international engagement in recent years.      The critical national security

implications of our efforts in Afghanistan and Iraq, the kinetic operating

environments in those countries, evolving control settings, and dynamic

host-country governance conditions all dictate a need for intensive oversight.

      Given the need for such intensive oversight, some may suggest that it

would be productive to establish a permanent inspector general for

contingency operations to oversee the subset of civil-military operations in

conflict zones. We caution against such a move because it is unclear that a

permanent inspector general of this kind would improve the oversight of

civilian-military operations.    Responding to the intensive oversight

requirement by establishing a new bureaucracy is unnecessary because

Congress has already created oversight organizations with the capacity to

meet this requirement.




                                    -8-
         The statutory inspectors general for State, Defense, USAID, and other

agencies serving abroad can, with adequate funding, respond effectively to

future contingency operations in their respective areas of responsibility and

provide the necessary oversight. Each of our organizations has unmatched

knowledge of and experience working with the organizations that we

oversee. We have a deeply ingrained institutional understanding of past

management challenges and lessons learned from previous contingency

operations.     We bring this knowledge to bear on assessments of new

contingencies and share this knowledge with our Agency counterparts. In

addition to the work of the statutory inspectors general, the Government

Accountability Office provides an overarching view of multiagency

programs such as those in Afghanistan and Iraq.

         An example of a statutory inspector general’s ability to react quickly

and effectively to an emerging large-scale operation is the earthquake in

Haiti.    To help USAID guard against waste, fraud, and abuse in Haiti

following the January 2010 earthquake, for example, we produced a

comprehensive oversight plan, which included audits, fraud awareness

activities, and an investigative strategy. We also prepared a report for the

USAID Administrator, providing examples of issues that we had observed in

past humanitarian assistance efforts and suggestions for improving their



                                      -9-
implementation in the future. We took all these actions within weeks of the

disaster.

       Another reason for not establishing a permanent inspector general

comes from information in the Special Inspector General for Iraq

Reconstruction’s recent report on applying lessons from Iraq, which points

out that there were no stabilization and reconstruction operations during 30

of the past 60 years.    We therefore question what the mandate of this

position would be in the absence of such efforts.

       Agency inspectors general also have a track record of working

together to ensure comprehensive oversight of multiagency matters. Offices

of inspector general (OIGs) routinely participate in joint investigations and

frequently conduct joint audits and reviews of interagency programs and

activities both domestic and international.         At Congress’s direction,

inspectors general across the government have come together to provide

oversight of stimulus spending and established the Recovery Operations

Center to help coordinate and focus investigative work and leads across

offices.    Similarly, following Hurricane Katrina, the inspector general

community rallied to provide coordinated oversight across 13 federal

departments and agencies.        In international settings, OIGs develop

coordinated annual oversight plans for Southwest Asia and for HIV/AIDS,



                                    - 10 -
malaria, and tuberculosis programs. For Pakistan, we have coordinated the

preparation of a quarterly report with the State and Defense OIGs on the

progress of the civilian assistance program and related oversight plans and

activities. These arrangements work well because each of the participating

organizations   has   clearly   distinguishable   lines   of   authority   and

accountability for oversight of a specific agency or department.

      This type of effective oversight coordination was in place in

Afghanistan before SIGAR’s establishment.         Almost a full year before

SIGAR came into being, our office was actively engaged in an Afghanistan

Working Group with representatives of the Government Accountability

Office and the State and Defense OIGs. This working group developed a

strategic approach to oversight of U.S. Government activities in Afghanistan

and worked to coordinate oversight plans and activities among the offices so

that it could provide a comprehensive, objective perspective on U.S.

Government efforts there. The working group offered to furnish Congress

with quarterly reports on the progress of Afghanistan assistance like those

that SIGIR was producing at the time in Iraq. Because the Afghanistan

Working Group was already in place, our office opposed the formation of

SIGAR as a costly duplication of existing institutions and an unnecessary

additional layer of bureaucracy.



                                    - 11 -
      The prospects of a successful civil-military campaign in Afghanistan

have not been improved by multilayered reporting requirements and

oversight institutions. Rather, the resulting intensified need for coordination

and deconfliction has diverted valuable time from audit and investigative

work and program management. Now that an external peer review has

identified weaknesses in SIGAR’s systems and controls, some see a solution

in folding SIGAR into a larger organization with the same overlapping

authorities. Rather than replicate the inefficient arrangement in Afghanistan,

we encourage Congress and the Administration to invest in the established

statutory inspectors general that have served them well for so many years.

      Thank you for this opportunity to address the Subcommittee. We

appreciate your interest in our work and perspectives on these important

topics. I would be happy to answer any questions you may have at this time.




                                    - 12 -
